<html>
<title> - NATIONAL MARITIME CENTER AND MARINER CREDENTIALS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
            NATIONAL MARITIME CENTER AND MARINER CREDENTIALS

=======================================================================

                                (111-47)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                              July 9, 2009

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                         U.S. GOVERNMENT PRINTING OFFICE
50-974 PDF                    WASHINGTON: 2009
______________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 20402-0001





             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           ROBERT E. LATTA, Ohio
CHRISTOPHER P. CARNEY, Pennsylvania  BRETT GUTHRIE, Kentucky
JOHN J. HALL, New York               ANH ``JOSEPH'' CAO, Louisiana
STEVE KAGEN, Wisconsin               AARON SCHOCK, Illinois
STEVE COHEN, Tennessee               PETE OLSON, Texas
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
VACANCY

                                  (ii)

  
?

        SUBCOMMITTEE ON COAST GUARD AND MARITIME TRANSPORTATION

                 ELIJAH E. CUMMINGS, Maryland, Chairman

CORRINE BROWN, Florida               FRANK A. LoBIONDO, New Jersey
RICK LARSEN, Washington              DON YOUNG, Alaska
GENE TAYLOR, Mississippi             HOWARD COBLE, North Carolina
BRIAN BAIRD, Washington              VERNON J. EHLERS, Michigan
TIMOTHY H. BISHOP, New York          TODD RUSSELL PLATTS, Pennsylvania
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
MICHAEL E. McMAHON, New York
LAURA A. RICHARDSON, California
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Block, Richard, Secretary, National Mariners Association.........    25
Clark, Captain Bill, Owner, South Ferry, Inc.-Shelter Island, New 
  York, Representing The Passenger Vessel Association............    25
Cook, Rear Admiral Kevin, Director, Prevention Policy, United 
  States Coast Guard.............................................     6
Laird, Thomas, Director of New Business Development, American 
  Maritime Officers..............................................    25
Rodriguez, Mike, Executive Assistant, Masters, Mates, and Pilots 
  Union, accompanied by Bill Van Loo, Secretary-Treasury, Marine 
  Engineers' Beneficial Association..............................    25
Stalfort, Captain David C., Commanding Officer, National Maritime 
  Center, United States Coast Guard..............................     6
Wells, Ken, President, Offshore Marine Services Association......    25

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Block, Richard...................................................    39
Clark, Captain Bill..............................................    62
Cook, Rear Admiral Kevin.........................................    68
Laird, Thomas....................................................    75
Wells, Ken.......................................................    87

                       SUBMISSIONS FOR THE RECORD

Stalfort, Captain David C., Commanding Officer, National Maritime 
  Center, United States Coast Guard:.............................
      Responses to questions from Rep. Bishop, a Representative 
        in Congress from the State of New York...................    13
Laird, Thomas, Director of New Business Development, American 
  Maritime Officers, supplemental testimony......................    83

                        ADDITIONS TO THE RECORD

Bronson, Lawson E., letter to the Subcommittee...................    94
Meservey, Mark S., Commander, U.S. Coast Guard Congressional and 
  Governmental Affairs Staff, letter to Rep. Adam Smith, of 
  Washington.....................................................    96
[GRAPHIC] [TIFF OMITTED] T0974.001

[GRAPHIC] [TIFF OMITTED] T0974.002

[GRAPHIC] [TIFF OMITTED] T0974.003

[GRAPHIC] [TIFF OMITTED] T0974.004

[GRAPHIC] [TIFF OMITTED] T0974.005

[GRAPHIC] [TIFF OMITTED] T0974.006

[GRAPHIC] [TIFF OMITTED] T0974.007

[GRAPHIC] [TIFF OMITTED] T0974.008

[GRAPHIC] [TIFF OMITTED] T0974.009

[GRAPHIC] [TIFF OMITTED] T0974.010

[GRAPHIC] [TIFF OMITTED] T0974.011

[GRAPHIC] [TIFF OMITTED] T0974.012

[GRAPHIC] [TIFF OMITTED] T0974.013

[GRAPHIC] [TIFF OMITTED] T0974.014

[GRAPHIC] [TIFF OMITTED] T0974.015



    HEARING ON THE NATIONAL MARITIME CENTER AND MARINER CREDENTIALS

                              ----------                              


                         Thursday, July 9, 2009

                   House of Representatives
          Subcommittee on Coast Guard and Maritime 
                                    Transportation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Elijah 
E. Cummings [Chairman of the Subcommittee] presiding.
    Mr. Cummings. This hearing is called to order. The 
Subcommittee will convene.
    We convene here today to review the operations of the 
National Maritime Center and the issuance of merchant mariner 
credentials. Over the past 18 months, the Coast Guard has 
consolidated the credentialing functions that were previously 
provided at 17 Regional Exam Centers into the National Maritime 
Center, and the Center opened at a new facility in West 
Virginia.
    The Coast Guard has also made significant changes to the 
actual credential that it issues. Specifically, it has 
consolidated the licenses, documents, certificates of registry, 
and endorsements that it previously issued as separate items 
into a single new Merchant Mariner Credential, which is 
essentially a passport-sized booklet. MMCs began to be issued 
on April 15th of this year.
    Finally, the Coast Guard has issued new guidelines to 
govern the type of medical information mariners are required to 
submit at the time they apply for a new or renewal credential, 
as well as the specific review processes to which this 
information will be subjected to assess mariner fitness for 
duty.
    Each one of these changes is a significant alteration in 
the way the Coast Guard manages mariner licensing and I am 
hopeful that each change will, over the long term, 
significantly improve the licensing process and the services 
provided to mariners. That said, these hoped-for improvements 
have not yet been realized. To be frank, it appears that the 
Coast Guard did not adequately plan all aspects of the 
consolidated credential production process and the roll-out of 
the MMC, and this has led to extensive delays in the issuance 
of credentials.
    Let me say this. As I read the testimony of the Coast 
Guard, that became very clear to me. We have got to do better 
planning. I am sorry, we can do better than what we are doing. 
We can do better. This is the United States of America, this is 
not some third world country. I have looked at the testimony 
and, to be frank with you, I think that when we are talking 
about an organization with the sophistication of the Coast 
Guard, a lot of the glitches that we ran into should have been 
anticipated and we should have prepared for them. Most 
importantly, we should do nothing to stand in--Government must 
work for the people, not against them, and if I have got 
mariners that cannot work because they cannot get their 
credentials, that is a major problem, major.
    Further, as one specific area of delay has been resolved, 
subsequent bottlenecks have developed, and it appears that no 
significant progress has been made in speeding credential 
processing times. In fact, in a report issued on January 22nd, 
the Coast Guard indicated that the average gross processing 
time between July 2008 and January 2009--meaning both the time 
required by the Coast Guard to process an application and the 
time the service waits for a mariner to provide additional 
information--totaled 83 days. Fifty percent of the credentials 
issued during this period were processed in under 52 days.
    Looking just at the time that it took the Coast Guard to 
process an application, and excluding all time spent waiting 
for a mariner to provide additional information, the Coast 
Guard reported that its average processing time in that period 
was 41 days, and that 50 percent of credentials were processed 
in 31 or fewer days.
    By comparison, in a report issued on June 29, 2009, the 
Coast Guard reported that the average gross processing time for 
a credential between the beginning of 2009 and June 23rd was 80 
days, while 50 percent of credentials processed during that 
period were processed in 54 or fewer days. That same report 
indicated that the length of time required by the Coast Guard 
itself in that period to process an application was 48 days, 
and only 35 percent of credential applications were being 
completely processed in 30 or fewer days.
    In other words, between January and June 2009, total 
processing time remained in the 80-day range, and it was 
actually taking the Coast Guard itself longer to process 
credential applications in the January to June 2009 period than 
in the six months leading up to January 2009.
    A credential is a mariner's ticket to work. Let me repeat 
that. A credential is a mariner's ticket to work. If the 
mariner does not have that credential, for whatever reason, the 
mariner cannot work. I want to be very clear. I want to make 
sure that we uphold our standards and make sure that those 
people who are performing the job as mariner are properly 
qualified and we send them through the processes that they have 
to go through. But, as I said before, we can do better.
    Unfortunately, the Subcommittee has heard of instances in 
which mariners' credentials have expired before a renewal 
application could be fully processed, and these mariners have 
been left without an income while they were waiting for the 
bureaucratic wheels to grind. I am interested to see what the 
Coast Guard does when somebody falls in that position. Is there 
any priority given to that person who is about to lose their 
license through no fault of their own? I would like to hear 
what you have to say about that.
    This is simply unacceptable. Given all that we are doing to 
stimulate our economy and to support the growth of jobs, it is 
inexcusable that any person should be out of work because the 
Government cannot process a professional credential in a timely 
manner.
    I look forward to hearing from Admiral Cook, the Coast 
Guard's new Director of Prevention Policy, and Captain 
Stalfort, the Director of the National Maritime Center, 
specifically what is being done to ensure that the new 
credential processing systems finally yield real benefits to 
mariners.
    As I mentioned, the Coast Guard has also instituted new 
guidelines regarding the assessment of mariner fitness for 
duty. This guideline, known as Navigation and Vessel Inspection 
Circular 04-08, is intended to provide the level of specificity 
regarding mariner fitness for duty that previous guidance and 
even statute and regulation have lacked. The NVIC was the 
product of extensive work and consultation, and the National 
Transportation Safety Board indicated in its report on the 
COSCO BUSAN accident in San Francisco that it is ``responsive'' 
to much of what the Board called for in recommendations made 
after the 2003 allision of the Staten Island Ferry.
    Nonetheless, despite this improvement, there remain issues 
related to the assessment of a mariner's fitness for duty that 
we look forward to examining today. Currently, pilots are 
required to submit to the Coast Guard the results of annual 
physicals. However, most mariners submit medical exam results 
only once every five years, when they seek the renewal of their 
credentials.
    In its report on the COSCO BUSAN incident, the NTSB, which 
this Congress has a tremendous amount of respect for, noted 
that the Coast Guard has not moved to require mariners to 
report changes in their medical condition during the five-year 
period between credential renewals as the Board had recommended 
after the Staten Island Ferry accident. We wish to understand 
why this recommendation remains unaddressed.
    Additionally, in its marine casualty investigation report 
on the COSCO BUSAN incident, the Coast Guard Senior 
Investigating Officer recommended that ``the Commandant of the 
Coast Guard amend the existing standards in Marine Safety 
Manual (MSM) Volume III, for medical professionals performing 
mariner physicals, to ensure that physicals are performed only 
by designated physicians with a thorough understanding of the 
physical and mental demands of a mariner's position.''
    The Coast Guard responded to this recommendation, 
incredibly, by stating these words: ``We believe the guidance 
provided in NVIC 04-08 is sufficient to provide medical 
professionals with the necessary understanding of the 
occupational demands of mariners to perform marine physicals'' 
and that the Service therefore does not intend to change its 
requirements regarding the medical personnel who perform 
mariner physicals.
    I tell you, I am looking forward to examining these and 
related issues in more detail today. We look forward to the 
testimony of the industry witnesses assembled on our second 
panel, who will provide a variety of perspectives on these 
issues.
    I have read all the testimony and I would advise and hope 
that the members of the--I know that you all usually don't 
stick around for the second panel, but I hope you would at 
least leave staff here. But if nothing else, you need to read 
the testimony of the second panel so you can see what kind of 
problems are happening here.
    Mr. Cummings. With that, I want to recognize the 
distinguished Ranking Member, Mr. LoBiondo.
    Mr. LoBiondo. Thank you very much, Mr. Chairman, as always, 
for holding this hearing.
    All U.S. merchant mariners, from the most inexperienced 
personnel to the master of the vessel, are required to hold one 
or more credentials issued by the Coast Guard. These 
credentials prescribe the duties these mariners may carry out 
aboard vessels and are required for maritime employment. As 
such, we should be very concerned by the situations or 
conditions which may cause a delay in the issuance or renewal 
of maritime credentials within the Coast Guard.
    Unfortunately, we are experiencing such a situation now. 
Many merchant mariners have found it difficult to renew their 
licenses and merchant mariner documents over the previous year 
have been difficult to get. The Coast Guard has taken several 
actions to address many of these issues over the last six 
months. The Coast Guard recently completed a significant 
restructuring of its credentialing programs, including the 
establishment of the National Maritime Center. As part of this 
overhaul, the service consolidated its responsibilities to 
review and approve applications for new and renewed 
credentials, which previously were handled independently by 17 
Regional Exam Centers located throughout the Country.
    While the consolidation has succeeded in standardizing the 
review of applications, it has also coincided with substantial 
delay in the issuance of new and renewed credentials. I hope 
the witnesses will address in their testimony the specific 
issues which are causing the delays and the actions that the 
Coast Guard will take to rectify these problems.
    The overhaul of the credentialing program also coincided 
with the move of the new Merchant Mariner Credential Center, 
which will bring together licenses, merchant mariner documents, 
and other Coast Guard credentials into one document, and will 
be responsible for the implementation of the Transportation 
Worker Identification Card, or the TWIC program. We have heard 
the Coast Guard has had some difficulty in switching over to 
the software necessary to support the new MMC and that this has 
caused administrative delays.
    Additionally, I remain concerned that the delays in 
processing TWIC applications within the Transportation Security 
Agency will cascade into further delays in the issuance of MMCs 
to otherwise qualified U.S. merchant mariners. It is clearly 
unacceptable to have government procedures delaying the review 
and approval of applications that have been correctly completed 
and submitted. I hope that we will hear specific answers on how 
the Coast Guard will address these serious issues in a timely 
manner.
    This is a matter of extreme importance to the maritime 
community and I thank all of the witnesses for their ongoing 
efforts to improve the credentialing process.
    Lastly, Mr. Chairman, I would just like to take a moment to 
recognize the service of two Coast Guard liaison officers who 
will be transferring to their next post later this month. 
Commander Mark Messervy has been a House Liaison Officer for 
the last three years and has provided valuable assistance to 
everyone on this Subcommittee. Lieutenant Jamie Frederick has 
served for two years as the Assistant Liaison Officer and has 
likewise be an invaluable resource to all the members and their 
staff.
    These gentlemen have served as the face of the Coast Guard 
here in the House and have sacrificed countless hours of time 
with their families to respond to congressional requests and to 
accompany members and staff as we travel to learn firsthand 
about Coast Guard missions and policy in the field.
    Mr. Chairman, I hope that you and the other members of the 
Committee will join with me in thanking them and their families 
for their service to the House of Representatives and their 
service to the United States of America.
    Mr. Cummings. I want to thank you, Ranking Member, for your 
statement, and I certainly join you in your words with regard 
to our two distinguished staff members who are leaving us. So 
often what happens is that folks perform duties that, in the 
words of one of my favorite theologians who says that they are 
unseen, unnoticed, unappreciated, and sometimes unapplauded. 
But he goes on to say that those are the most important people 
and they do the most important functions, but always do not 
necessarily receive the proper recognition.
    So I take this moment to thank you. I thank you for 
touching our lives. I thank you for being a part of what we try 
to do here to uplift the people of our Country and uplift the 
people of the world. I just want to let you know that you are 
not unseen, you are not unnoticed, you are not unappreciated, 
and you certainly are not unapplauded. May God bless you on 
your mission and we thank you.
    With that, we now will call Rear Admiral Cook--oh, Mr. 
Olson. I am sorry.
    Mr. Olson. Thank you very much, Mr. Chairman. Given the 
Floor schedule, I will be very brief.
    I look forward to hearing how the Coast Guard plans to 
reduce the merchant mariner credentialing backlog that exists 
today. It is important to ensure that the backlog is addressed 
and that new applications are processed in a timely manner so 
our Nation's merchant mariners can continue working without an 
unnecessary interruption.
    I thank you all for joining us today, look forward to 
hearing your testimony, and I yield back my time, Mr. Chairman.
    Mr. Cummings. Thank you very much, Mr. Olson.
    The hearing today is going to be broken up a bit. We are 
going to have, shortly, a number of amendments on the Floor, so 
what we are going to try to do is get through these opening 
statements. If we get through that, we have accomplished a lot, 
considering the limited amount of time we have.
    Rear Admiral Kevin Cook is the Director of Prevention 
Policy with the United States Coast Guard. He will be followed 
by Captain David C. Stalfort, who is the Commanding Officer of 
the Coast Guard's National Maritime Center.
    Rear Admiral.

  TESTIMONY OF REAR ADMIRAL KEVIN COOK, DIRECTOR, PREVENTION 
    POLICY, UNITED STATES COAST GUARD; AND CAPTAIN DAVID C. 
STALFORT, COMMANDING OFFICER, NATIONAL MARITIME CENTER, UNITED 
                       STATES COAST GUARD

    Admiral Cook. Good morning, Mr. Chairman and distinguished 
members of the Subcommittee.
    Mr. Cummings. Good morning.
    Admiral Cook. I am Rear Admiral Kevin Cook, as you 
introduced me, Director of Prevention Policy for the Marine 
Safety, Security, and Stewardship of the United States Coast 
Guard. I am pleased to have this opportunity to appear before 
you today to discuss the Mariner Credentialing program.
    I would like to ask, Mr. Chairman, if I could have my 
written statement entered into the record.
    Mr. Cummings. Without objection, so ordered.
    Admiral Cook. Thank you, sir.
    I think before I get into what I prepared, I just want to 
assure you that it is our intention to stay for the second 
panel. That is a hallmark for us, to be able to hear from the 
mariners themselves and those that represent them.
    Mr. Cummings. I really appreciate that. Thank you very 
much.
    Admiral Cook. Sure.
    I recently assumed my new duties as Director of Prevention 
Policy. While I have previously served in a number of marine 
safety capacities, including Captain of the Port in Houston-
Galveston, where I oversaw maritime operations, including a 
Regional Exam Center, the Mariner Credentialing program and the 
National Maritime Center fall under my new responsibilities, 
and while they have undergone significant transformation during 
a restructuring and centralization initiative, I know there is 
much work to do.
    The Coast Guard is fully committed to improving the Mariner 
Credentialing program and strongly believes that centralized 
operations will improve consistency, improve customer service 
through a dedicated customer service center, and will reduce 
credential processing time. These improvements were 
unachievable in the decades of decentralized operations at the 
17 independent Regional Exam Centers.
    While there are many benefits to centralization, I am also 
keenly aware of the considerable challenges the centralization 
has experienced, most importantly our inability to meet the 
Coast Guard's targeted credential processing time of 30 days. I 
am extremely concerned that the average processing time remains 
80 days, and has or may impact the livelihood of individual 
mariners. This backlog is unacceptable and resolving this 
problem is my first and my foremost priority.
    I would like to take a minute or two first to review key 
changes that have been implemented since October 2007. Through 
a phased approach, all 17 Regional Exam Centers transitioned to 
centralized operations. The new building was built in 
Martinsburg, West Virginia, where we also introduced new 
credentialing production processes. A quality management system 
was created to provide a framework for process management, 
which is now compliant with ISO-9001.
    Also, in accordance with the International Maritime 
Organization requirements, a third-party evaluation was 
completed by Transport Canada in March 2008 and found that the 
Coast Guard's Mariner Credentialing program fulfills the United 
States' obligations and responsibilities under the 
International Convention for Standards of Training, 
Certification, and Watchkeeping for Seafarers. A call center 
was established and is now providing enhanced informational 
services to 26,000 mariners each month. And, most recently, the 
Coast Guard introduced the consolidated merchant mariner 
credential in April to coincide with the implementation of the 
Transportation Worker Identification Card.
    These new procedures were established with TSA to share 
mariner data, eliminating the need for mariners to travel to a 
Regional Exam Center for fingerprinting and identification, 
saving time and money for both the mariners and the Coast 
Guard. This new passport-style credential also reduces the 
number of individual credentials a mariner must carry, provides 
enhanced security features to prevent forgery, and reduces U.S. 
mariners' problems that they were facing overseas when 
presenting their credentials. Of note, since the full 
centralization in January of this year, the National Maritime 
Center has issued over 35,000 credentials, 12,000 of these, or 
35 percent, in less than 30 days.
    Immediately after I assumed my duties just two weeks ago, I 
received a detailed briefing on the operations at the National 
Maritime Center and conducted a site visit to learn more. This 
was my first step in a holistic look at the entire program, and 
I have worked with my staff to develop an aggressive action 
plan to resolve current delays and maintain greater oversight 
and accountability.
    Just this Monday, we stood up a Tiger Team on site at the 
National Maritime Center to focus exclusively on clearing the 
current backlog. I am arranging to bring in an independent 
outside expert to analyze the credentialing processes and to 
identify the bottlenecks and opportunities for improvement that 
we are not currently seeing. I am examining to see if our call 
center and Web site are meeting mariner expectations as they 
work their way through their credentialing process. And I will 
ensure that there is regular communication with the maritime 
industry to listen to suggestions and feedback.
    Mr. Chairman, I will conclude my remarks by reiterating 
that reducing the processing time is at the very top of my 
priorities. The Coast Guard is fully committed to providing 
efficient, consistent, and top quality credentialing services 
to our Nation's mariners, and I intend to deliver on this 
commitment.
    With your permission, Mr. Chairman, I would now like to 
have Captain Stalfort do some brief introductory remarks.
    Mr. Cummings. Very well.
    Captain?
    Captain Stalfort. Good morning, Mr. Chairman, distinguished 
members of the Subcommittee. I am Captain David Stalfort, the 
Commanding Officer of the National Maritime Center.
    I was assigned to the National Maritime Center in June of 
2007 and given responsibilities to transition the Coast Guard's 
licensing and credentialing program to centralized operations. 
I have been a licensed mariner for 20 years and have been 
assigned to marine safety positions throughout the Country, 
including assignment of Captain of the Port in Memphis, where 
my duties included oversight of the Regional Exam Center.
    I spent the last two years at MMC leading our team as we 
transitioned all 17 exam centers to centralized operations, 
working to change the culture of the MMC and the RECs to better 
focus on customer service, and I have listened to the maritime 
representatives to include and incorporate their input into the 
establishment of our credentialing production facilities. I 
have implemented the ISO-9001 compliant quality management 
system that is being used to systematically improve the 
efficiency of our processes, with our ultimate goal of reducing 
processing time and meeting mariners' expectations. I also led 
the project design to implement the new consolidated merchant 
mariner credential.
    Shortly after we finished the centralization in January of 
this year, we faced initial bottlenecks with medical 
evaluations, which we resolved by expanding the size of our 
medical evaluation staff. We are now facing bottlenecks created 
by the technical and software issues associated with production 
of the new credential, which, when combined with the surge in 
new applications submitted by mariners in advance of the April 
2009 TWIC deadline, created a backlog of about 6800 
applications.
    As Admiral Cook has said, this is absolutely unacceptable. 
While we have resolved many of the initial software challenges, 
we have also recently established a Tiger Team, along with 
their existing evaluation team, who is expected to increase the 
production rate substantially and eliminate the backlog as 
quickly as possible.
    Thank you for the opportunity to appear today, and we would 
be pleased to answer any questions you may have.
    Mr. Cummings. One of the questions I asked in my opening 
statement was what happens and do we have a way of knowing when 
somebody has made application timely and then they are in 
jeopardy of coming to a point where you all have not done 
completely your work and the present license will lapse? Do we 
have any way of flagging those people? Because it seems to me 
that those are the people that are in most jeopardy and those 
are the people that are going to lose their jobs. Do you follow 
my question? What happens to that person? Do they get any 
priority? Assuming they have done everything they are supposed 
to do.
    Admiral Cook. Mr. Chairman, they do get priority. The 
simplest way we are notified is through the mariner call 
center, and that information is relayed directly to the 
processing people. And I have witnessed the great care of how 
the records are handled within the National Maritime Center so 
that at any point we can find that record and move it along. We 
have a number of examples of cases which continue to come in 
like that.
    The shortcoming is that I don't know that all mariners are 
familiar with calling in to the call center. We do receive some 
from RECs; we receive some from Coast Guard units who are made 
aware through industry connections; and, also, their companies 
will call in. So when we know, they do get fast-tracked and a 
number of them have been resolved.
    Mr. Cummings. You know, it is nice to have these hearings, 
but I am also trying to come up with solutions, because I don't 
have time to waste, nor do you, nor do the mariners, and I 
guess you just said something that tweaked my interest. So, in 
other words, there is a possibility that a lot of mariners 
don't know that they can perhaps, when they find themselves, 
say 15, 20 days, looks like they are going to have that problem 
of not having a license, they can call in and try to expedite 
their situation.
    Until we get all of this resolved and caught up, how can we 
make sure we get that word out to the mariner community so that 
they will know that? I don't want one person losing one hour of 
work because of something that the Government failed to do. You 
follow what I am saying? And I know you don't want that either. 
So how can we make sure, coming out of this hearing, that we 
get that word out to let folks know that we have got those 
kinds of situations? In other words, that they can try to take 
action or get hold of somebody to try to speed up their 
process? You follow me?
    Admiral Cook. Well, Mr. Chairman, certainly, as I 
mentioned, there were the 26,000 or so mariner hits either on 
our Web site or our call center, so that number is growing. 
But, in the meantime, we could offer to do a targeted outreach 
through our advisory committees and the major mariner groups, 
the unions, the major employers, and let them know that if they 
have anybody that is falling into that category, that they need 
to contact us immediately.
    Of course, that is the short-term solution. We mentioned a 
couple times here about this Tiger Team, and the Tiger Team is 
going to continue to tackle this backlog. At the same time, we 
have also had our internal issues primarily overcome now with 
the software, the training that goes with the new credential. 
So we continue to see the internal production ramping up. At 
the same time, we are now adding a cap group of Tiger Team on 
top. So we do anticipate that we are going to continue to see 
dramatically less and less mariners put in jeopardy like this.
    Mr. Cummings. Yes, I understand. What I am trying to do is 
I am trying to get to the one person who may find themselves in 
that predicament. So if you will do that, I would really 
appreciate it. I know you are going to move towards resolving 
this.
    I am going to allow Mr. LoBiondo to go. I have a lot of 
questions, so you can go ahead. I will yield to you.
    Mr. LoBiondo. Mr. Chairman, are we going to break?
    Mr. Cummings. We are going to break when we have five 
minutes. Right now it is 9:40.
    Mr. LoBiondo. Okay.
    Mr. Cummings. And we can just go back and forth, whatever 
you need.
    Mr. LoBiondo. Okay. All right.
    The Coast Guard has temporarily repositioned personnel to 
address the backlog by issuing 500 MMCs per day, as we 
understand it. Are your baseline funding and personnel levels 
adequate to meet the baseline goal of issuing 300 MMCs a day?
    Admiral Cook. Congressman, I do believe it is adequate. We 
believe that this backlog is a temporary aberration caused by 
first processing through a backlog of medical and then a surge 
which occurred around April with the new TWIC coming on line, 
on top of a seasonal surge, and then the new credential and the 
software issues associated and training with that. So once we 
have a capability to produce 300 credentials with normal 
staffing, and that is what we have as our incoming load, so we 
will be at a steady state once we get the backlog down.
    So you mentioned 500 or so. That is the number that we are 
tracking, and each day we should be able to whittle down 200 
additional credentials against the backlog. So once we get it 
down to the point where we can have 300 coming in, 300 going 
out, and we can conduct that with our normal staffing.
    Mr. LoBiondo. Can you give us your take on if the delays 
have impacted the abilities of maritime employees to get new 
hires or temporary seasonal workers on board? Have they 
experienced difficulty here?
    Admiral Cook. Congressman, I would like to ask Captain 
Stalfort to answer the detailed questions on some of our 
expedited procedures.
    Captain Stalfort. Congressman, for the entry level 
mariners, those processed applications are expedited at the 
Regional Exam Centers and sent directly to the NMC, where they 
are fast-tracked through the evaluation process. So they are 
not held up in the backlog that we currently have. We did that 
deliberately because the evaluation of those entry level 
mariners is fairly simplistic, so they go right from the 
Regional Exam Centers, when the mariners apply, directly to 
production, and those are being produced in less than 15 days.
    Mr. LoBiondo. Do you have the authority to allow a mariner 
to continue operating under a license on an interim basis in a 
situation where the mariner, through no fault of his or her 
own, does not receive a new license before the old one expires?
    Captain Stalfort. No, sir, we do not.
    Mr. LoBiondo. That is it for right now, Mr. Chairman.
    Mr. Cummings. What was your question again?
    Mr. LoBiondo. The question was do they have the authority 
to issue an interim license if a mariner, through no fault of 
his or her own, can't get requalified in time. It seems like 
they should be able to.
    Mr. Cummings. Did you have something, Admiral?
    Admiral Cook. Just to add on top of that. We do allow 
applications to be sent in a year in advance of their 
expiration date, and we will honor the initial date for 
anniversary and hold that application, process it, and then 
issue it so the mariner does not lose any time.
    Mr. Cummings. All right, Ms. Richardson and Mr. Olson, we 
have six minutes before the vote. Do you want to ask, Mr. 
Olson? Are you ready? Do you have a question?
    Mr. Olson. No, Mr. Chairman, I am fine. Thank you.
    Mr. Cummings. All right. We are going to recess. It will 
probably be at least an hour. Someone from the Committee will 
keep you briefed on where we are. We have 13 votes.
    I do want to ask one last question. I noticed that when my 
staff went up there on July 2nd, to the Center, you all had 
6,800 applications awaiting review by a professional 
qualification evaluator. Is that backlog 6,800? Back on July 
2nd, would that have been about right?
    Admiral Cook. Yes, sir.
    Mr. Cummings. And so how many applications come in a day? 
In other words, I am trying to figure out how long it is going 
to take you all to get the backlog down. You said you will be 
able to do 200 extra a day, hopefully, but how many come in a 
day? In other words, you have got them constantly coming in and 
you have got a backlog, so I am trying to figure out--let me 
tell you what I am trying to do. I am trying to hold you to 
something. I am trying to hold you to getting down the backlog, 
because it is my plan to bring you all back in here in a 
certain amount of time, and I want to hear you say we have 
resolved the backlog.
    So while we are out, you might want to think about that and 
then be able to tell me how you are going to do it. I just 
believe that we can do it. I believe that the Coast Guard is an 
organization that is capable of achieving it.
    And I tell you, I would not have been so adamant if you had 
answered the Ranking Member's question a little different than 
what you did. When he asked you the question was it a personnel 
issue, did you have enough personnel, you said that was fine; 
you said there were just some problems that you had to work 
out. I think we pretty much know now what the problems are, 
based on your testimony, so what I want to do is I want to try 
to figure out a way to come up with some deadlines so that the 
mariner community feels comfortable. But I also want the Coast 
Guard to feel comfortable. I don't want the Coast Guard making 
commitments to things that they cannot keep. You follow me?
    So you have got about an hour and a half, maybe, to think 
about that, and then you can let me know when we come back and 
then we will hold a hearing whenever you tell me to so that we 
can get the report back. You understand, Admiral?
    Admiral Cook. Understand, Chairman.
    Mr. Cummings. All right. We are going to recess now for at 
least an hour. Thank you.
    [Recess.]
    Mr. Cummings. Call the hearing back to order.
    Admiral Cook, I had asked you about some type of timetable 
to deal with the backlog. I think we have a 6,800 backlog, is 
that right?
    Admiral Cook. Mr. Chairman, what I would like to propose is 
that you have us come back towards the beginning of the fiscal 
year and, in the meantime, we give your staffers monthly 
updates and give them some progress reports. It is our 
estimation that we will have good news at that point, but along 
the way we will keep you apprised of how it is going.
    Mr. Cummings. We will aim for October, is that what you are 
saying?
    Admiral Cook. Yes, Mr. Chairman.
    Mr. Cummings. All right. Very well.
    Tell me something, why is it that the time required by the 
Coast Guard to process an application appears to have 
lengthened between January and the June reports and why are 
fewer applications being processed in 30 or fewer days in June, 
as compared to January? I know that the Merchant Mariner 
Credential was introduced during that period. For how much of 
the processing delay does the introduction of that credential 
account and what are the other major sources of delay?
    Admiral Cook. I think there are three factors, Mr. 
Chairman. The first one is January 2009 was the full 
centralization such that all medical information had to come 
into the National Maritime Center. It was a higher volume than 
we anticipated; it caused a backlog, and that backlog was 
addressed as it went through the medical evaluation. It is now 
at the professional qualifications evaluation point in the 
process, which is the final point, and that is where the 
backlog is.
    The second thing that added to it was the applications 
which were caused to be expedited through the deadline for the 
TWIC. So there was an unnatural surge there. We normally also 
see a spring surge in applications, for whatever reason, so 
that was on top of the TWIC surge.
    And then it wasn't the introduction of the credential in 
itself, it was the fact that some of the software supporting it 
and then the additional training for the staff to be able to do 
it at an efficient rate was the third element.
    So those three things combined and they all took place over 
the first six months of the year, and that is why we saw the 
backlog grow, as well as the processing time.
    Mr. Cummings. How are we coming with regard to training of 
personnel?
    Admiral Cook. Training is very good. I would like to have 
Captain Stalfort just talk about that.
    Captain Stalfort. Yes, sir. Everybody goes through a 
deliberate process of training when they first come into the 
program; it takes about four to five months through a series of 
training entry levels first, moving up to the different levels 
of evaluation. The new evaluators are trained by seasoned and 
they pass a qualification performance standards, and then they 
are issued evaluations. But it is a lengthy process. Part of it 
is on-the-job training, where they start out under the tutelage 
of an experienced one working on the entry level ones before 
they get up to the harder level, upper level licenses.
    Mr. Cummings. You know, one of the complaints--and I am 
sure you will hear it in a few minutes--in the written 
testimony from folks in the second panel was that a lot of the 
people who supposed are trained don't seem to know what they 
are doing, and they felt that it was unfair to them, that is, 
the mariners, when they have people that were not properly 
trained. Have you heard that complaint at all?
    Admiral Cook. Sir, it is not a general complaint, but there 
are always training issues, and I think one of the things that 
we have learned in introducing the mariner call center is that 
initially we had hoped that kind of the operator level folks 
that were in the call center would be able to handle some more 
difficult questions than they are able to; they are just too 
wide of a range. So we have adapted that call center and we 
have a pocket of experts as well that can help answer the 
questions. So I could see why someone would get that 
impression, but we have done some things to address it.
    Mr. Cummings. I was looking at Ken Wells' testimony, the 
President of Offshore Marine Services Association, and he says 
inexperienced evaluators, evaluators are new to the licensing 
system and are learning the nuances of licensing on the fly. 
Not surprisingly, they have made mistakes. He also mentions 
that incorrect interpretations.
    We have also seen evaluators interpret policies and 
regulations incorrectly and then those interpretations take on 
a life of their own and repeating themselves with each new 
mariner application. Again, this is a natural outcome when a 
new staff learns its job, but that does not make it easy for a 
mariner who is affected by the interpretation.
    Are you familiar with those complaints?
    Admiral Cook. Yes, we are. And I know Mr. Wells is a 
supporter of the centralization overall, and he has always been 
good about providing feedback through other forms as well. So 
we are continuing to work with OMSA and any of the other trade 
associations to take that feedback and make the process better. 
But I can tell you as just a matter of degrees of training, 
there is a substantial improvement in the contractor corps that 
is doing a lot of the evaluation.
    Mr. Cummings. I would suggest that you take a look at his 
testimony; it is very good. I mean, he really lays it out and I 
think he presents it in a very balanced way that would be 
helpful to the Coast Guard and to the mariners.
    Admiral Cook. We will do that, Mr. Chairman.
    Mr. Cummings. Mr. LoBiondo?
    Mr. LoBiondo. I am good, Mr. Chairman.
    Mr. Cummings. Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chairman.
    I am sorry that I was not here for your testimony earlier, 
and I don't know whether you have access to the testimony of 
the people who will be on the second panel, but one of the 
individuals on the second panel is a person I am proud to call 
a constituent, Captain Bill Clark, of the South Ferry and 
Shelter Island, and he is here representing the Passenger 
Vessel Association. He is the President of that Association and 
in his testimony he urges the Subcommittee to get answers to 
several specific questions, and I would like to formally pose 
those questions to you now. I don't expect that you will have 
the answers to them, but with the indulgence of the Chairman, I 
would like to formally request that you provide answers to 
these questions, and they are as follows:
    How many qualified medical reviewers does the Coast Guard 
believe are necessary on staff at the National Maritime Center? 
That is question number one.
    [Information follows:]
    [GRAPHIC] [TIFF OMITTED] T0974.016
    
    Question number two: How many such positions are actually 
filled at present and how many remain open?
    [Information follows:]
    [GRAPHIC] [TIFF OMITTED] T0974.017
    
    Question number three: Of those that are currently filled, 
how many are filled with permanent employees and how many have 
been filled by personnel on temporary duty?
    [Information follows:]
    [GRAPHIC] [TIFF OMITTED] T0974.018
    
    And, lastly: How difficult is it for the Coast Guard to 
recruit qualified medical evaluators for assignment to the 
National Maritime Center?
    [Information follows:]
    [GRAPHIC] [TIFF OMITTED] T0974.019
    
    As I say, I don't expect you to have those answers at the 
tip of your tongue, but I do request that you provide them to 
the Committee in writing at your earliest possible convenience.
    Admiral Cook. We will do that, Congressman. We have general 
flow of information regarding that, but I think putting it 
together in an answer for the record would be the best thing.
    Mr. Bishop. I thank you very much.
    Mr. Chairman, I yield back the balance of my time.
    Mr. Cummings. Thank you very much.
    Just a few more questions. Admiral Cook, as you may know, 
the promulgation of the regulations bring towing vessels under 
inspection is of great concern to the Subcommittee. Your 
predecessor, Admiral Watson, had promised in a hearing before 
this Subcommittee that he would try to get the notice of 
proposed rulemaking on the towing vessel regulations out by the 
spring of this year, before he transferred out of the position 
you now hold.
    Obviously, that didn't happen. The Commandant wrote to me 
on June 25th stating that, ``The Coast Guard has drafted the 
notice of proposed rulemaking and it is in the final stages of 
review within the Department of Homeland Security.''
    Has the notice gone to OMB yet and what is your estimate of 
when it might be released?
    Admiral Cook. Mr. Chairman, it is still in review at the 
Department. We can't commit to a time line until we 
satisfactorily resolve whatever issues they may bring up, and 
we have not gotten feedback on that yet.
    Mr. Cummings. Okay. Do you have any idea when we may get 
that? This is my frustration, you see? This is why I set 
deadlines, because over and over again--you go ahead. I am 
listening.
    Admiral Cook. Well, sir, like I said, the difficult part of 
anticipating a final outcome is we don't know what issues the 
Department may raise. Then we will have to work those and send 
them back to the Department before it gets to OMB. So I am 
hesitant to commit on a time line.
    Mr. Cummings. I understand. All right, we will revisit 
that.
    On mariner medical standards, Admiral Cook, you indicated 
in your written testimony that the centralization of the 
mariner credentialing program to the National Maritime Center 
revealed that a large number of medical waivers were previously 
granted to mariners under the previous mariner credentialing 
program. How many such waivers were issued in the past and how 
many waivers have been issued by the NMC this year?
    Captain Stalfort. Currently, waivers issued by the National 
Maritime Center are about 5,600 since the beginning of this 
year, and that is roughly the same number that were issued in 
the past by the NMC under the decentralized.
    Mr. Cummings. So this year you waived 5,000? Is that what 
you said?
    Captain Stalfort. Yes, sir. And the waiver is when we 
review the medical conditions for the five years that the 
license is going to be good for, our physicians look into the 
mariner's medical condition and anticipate what changes may 
take place during those next five years. And if the mariner has 
medical conditions that are acceptable now to issue the 
credential, but our physicians feel may deteriorate, we issue 
the waiver, meaning that the condition is good, but we are 
concerned that it may change over the future. And the text of 
the waiver would be that the mariner may have certain 
stipulations, but that they need to report changes in their 
medical condition throughout the five year period of the 
credential.
    Mr. Cummings. The NTSB noted in its report on the COSCO 
BUSAN incident that the Coast Guard has not taken action with 
regard to one deficiency noted in safety recommendation M055, 
that is, the lack of a requirement for mariners to report 
changes in their medical condition between examinations--which 
are usually conducted every five years, as you just stated--at 
the time a mariner seeks to renew his credential. Why hasn't 
action been taken on this recommendation? Wouldn't it be 
preferable that mariners at least be required to report changes 
in their medical status to the Coast Guard during the five year 
period between credential renewals, Admiral?
    Admiral Cook. Mr. Chairman, we have not solved that 
entirely, that is correct, but I think we have approached it to 
try and get the highest risk personnel first. So you heard 
about the waiver conditions that a general mariner can get, 
which requires them then to report back changes in their 
health. We have instituted an annual requirement for pilot 
physicals, since we know pilots are always operating in the 
most congested waters. We get that annually, so we do get that 
update.
    And then what we have, our plans are to bring ourselves in 
compliance with some international rules which are coming up 
under the STCW Convention, which will require physicals every 
two years for mariners, with the requirement to report changes 
during that interim period if there are changes. Even though it 
is under the Standards of Training, Certification, and 
Watchkeeping for Seafarers, the STCW, we are going to 
incorporate that by regulation for all of our mariners.
    Mr. Cummings. So now pilots, unlike other credentialed 
mariners, have to submit to an annual physical, is that what 
you are saying?
    Admiral Cook. That is correct. And they have to submit it 
to the Coast Guard.
    Mr. Cummings. And after the COSCO BUSAN incident, the Coast 
Guard issued work instructions to guide the review of these 
physicals to ensure that they are properly reviewed. Does the 
Coast Guard have the ability to identify at any given time 
those pilots who have not submitted the results of their annual 
physicals or to remind pilots that a physical is due?
    Admiral Cook. We are very nearly complete on that, sir. It 
is one of the database fields that was added to our overall 
merchant mariner document tracking system. So I can't say that 
it is 100 percent yet, but every time we are getting an annual 
physical into the NMC, it is being recorded and then tracked 
for anniversary dates.
    Mr. Cummings. So you don't know when somebody has failed to 
submit within the five year period, is that it?
    Admiral Cook. There could be some pilots who have not come 
up yet into the program, so we are still--maybe Captain 
Stalfort can give you the exact amount, but we have the process 
down and it is coming right along.
    Captain Stalfort. Yes, Mr. Chairman. We know all the 
mariners that have come up on their five year cycle because 
that physical is associated with the renewal of their 
credential. For those pilots that have submitted the annual, we 
know those and are tracking those for the annual. We are still 
updating our database to find out what pilots have not 
submitted a physical so we can better track those, and that is 
one of the software changes that are coming forth.
    Mr. Cummings. All right.
    Mr. Bishop?
    Mr. Bishop. I thank the Chairman for granting me one more 
question.
    Again, I don't know whether you have had access to the 
testimony of those on the second panel, but in his testimony, 
Captain Clark makes a pretty compelling case for the increased 
utilization of trusted agents. So my question is how many 
trusted agents are you now utilizing and what impediments, if 
any, exist for the appointment of additional trusted agents so 
as to help facilitate the process that appears to be pretty 
severely backlogged?
    Admiral Cook. Okay, first off, Congressman, until we can 
make it so that mariners didn't have to go to an REC, then we 
really couldn't use trusted agents the way we envisioned it. So 
with the adoption of data sharing from the TSA TWIC, we now are 
able to do our identification and fingerprinting through that 
database and they no longer have to go to an REC.
    So I know at that point Captain Stalfort introduced the 
trusted agent concept and solicited for agencies that might 
want to participate, and he has got a list. I think the only 
thing that has held us back is our own internal workload. So we 
are looking to this fall to be able to go back out to those 
companies with a robust company, because it will require some 
oversight on our part and we think that, by the end of the 
year, the companies that are capable of doing the job as a 
trusted agent will be empowered to do so.
    Mr. Bishop. But you have a fairly well-established backlog 
of companies that wish to be employed or engaged as trusted 
agents?
    Admiral Cook. I know we have a number of associations like 
PDA, some union interest, as well as some----
    Mr. Bishop. But you have no shortage of those who are 
interested in serving, is that correct?
    Admiral Cook. That is correct, Congressman.
    Mr. Bishop. And you believe that you will be able to begin 
to engage them in a formal way by the end of this calendar 
year?
    Admiral Cook. We do. And we see that as part of a long-term 
strategy to alleviate our own workload.
    Mr. Bishop. Okay. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Cummings. I want to thank you gentlemen very much. You 
all are going to still stick around, right?
    Admiral Cook. We will.
    Mr. Cummings. All right, thank you very much. I had a 
number of questions, but I am going to submit them in writing. 
One of them concerns this NVIC 04-08. I don't know why you all 
are resistant to going along with NTSB. Why is that?
    Admiral Cook. Mr. Chairman, we think we have gone along 
with them in spirit, like I said, addressing the highest risks 
first. But as far as the mechanics of then producing 
regulations which we can go along--and we want to get the 
industry support too. Right now, mariners are not looking 
forward to that additional requirement. It is an added expense; 
it is potentially putting their license in jeopardy.
    So I think we have a way to go to work this up from the 
NVIC, which now includes the pilots and other people that have 
waivers, to getting the full spectrum of seafarers. But, 
regardless, we will be doing that to come in compliance with 
the STCW and draw that into our general mariner pool. So there 
will be regulations.
    Mr. Cummings. All right, thank you very much.
    We will now call our second and final panel. Mr. Ken Wells 
is President of the Offshore Marine Services Association; 
Captain Bill Clark is the Owner of the South Ferry, Inc. and is 
President of the Passenger Vessel Association; Mr. Richard 
Block is Secretary of the National Mariners Association; Mr. 
Mike Rodriguez is Executive Assistant to the President of the 
Masters, Mates, and Pilots Union; and he is going to be 
accompanied by Mr. Bill Van Loo, the Secretary-Treasurer of the 
Marine Engineers' Beneficial Association; and he will also be 
accompanied by Mr. Thomas Laird, who is the Director of New 
Business Development with the American Maritime Officers.
    So basically we have Mr. Wells, Captain Bill Clark, Mr. 
Richard Block, and Mr. Rodriguez will be testifying in that 
order. And it is my understanding that Mr. Bishop will be 
introducing Mr. Clark when Mr. Wells finishes.
    Mr. Wells, thank you very much.
    I want to thank all of you for sticking around. I really 
appreciate it. I know it is a long day. What we can do is we 
have read your testimony, but, having been here this long, we 
want you to say what you have got to say. But if you don't feel 
like saying it all, it is okay; we are not going to be mad at 
you.
    But we get the gist of it. And as you could tell from the 
testimony of our two witnesses from the Coast Guard, we have 
our concerns. So I would like for you to, if you don't mind, 
keep in mind what we have already said. And if there are things 
that you are concerned about that were not said or you want to 
bring out, I think the best and beneficial use that we can have 
is for you to highlight things that you are still concerned 
about, even with all that has been said. Does that make sense?
    Mr. Wells.

  TESTIMONY OF KEN WELLS, PRESIDENT, OFFSHORE MARINE SERVICES 
   ASSOCIATION; CAPTAIN BILL CLARK, OWNER, SOUTH FERRY, INC.-
  SHELTER ISLAND, NEW YORK, REPRESENTING THE PASSENGER VESSEL 
   ASSOCIATION; RICHARD BLOCK, SECRETARY, NATIONAL MARINERS 
ASSOCIATION; AND MIKE RODRIGUEZ, EXECUTIVE ASSISTANT, MASTERS, 
     MATES, AND PILOTS UNION, ACCOMPANIED BY BILL VAN LOO, 
 SECRETARY-TREASURY, MARINE ENGINEERS' BENEFICIAL ASSOCIATION; 
    AND THOMAS LAIRD, DIRECTOR OF NEW BUSINESS DEVELOPMENT, 
                   AMERICAN MARITIME OFFICERS

    Mr. Wells. Thank you, sir, and good afternoon, Chairman 
Cummings, Ranking Member LoBiondo, members of the Subcommittee. 
Thank you for giving us the opportunity to testify.
    OMSA is the national trade association representing the 
owners and operators of America's offshore work boat industry. 
The American citizens who work onboard OMSA member vessels make 
it possible for our Country to explore and produce its offshore 
oil and gas, and soon they will be instrumental in the 
construction and maintenance of offshore wind and other 
renewable energy facilities.
    It is worth noting these mariners are among the largest 
group of U.S. seafarers who are currently required to meet STCW 
requirements.
    I will just touch on my testimony.
    We raise some concerns about the NMC. They have been very 
well vetted by the Committee members and the Coast Guard itself 
has raised some of those concerns. It is not surprising that 
there have been glitches in this process. We haven't managed to 
avoid Murphy's Law. The thing we would stress is that for each 
problem there is a mariner whose livelihood is at stake. We 
think the Coast Guard knows that, but it raises the stakes 
very, very high; it means that we need to be virtually error 
free.
    However,--and this gets to our conclusion--we can only make 
the system so efficient if the product is still a bad product. 
We can only deal with the structure of the NMC so much before 
the real problem emerges, and we think the real problem is that 
the licensing and documentation system itself is broken. 
Evaluators can only do so much when the system is so complex 
that the mariners can't even fill out the forms correctly and 
only the most experienced evaluators can figure out how to 
apply this patchwork of regulations, policies and 
interpretations correctly.
    First, the Coast Guard has broached the idea of making this 
a computer-based application process. It is a good idea. They 
have talked about making it like Turbo Tax. That is a good 
example. And we have to remember 7 million Americans receive a 
notice every year from the IRS saying they made a math error. 
So the licensing process is not the only one that is prone to 
error. We would urge the Coast Guard to move forward to 
allocate the proper resources to make that electronic system 
work.
    Secondly, we need to simplify the process itself. We have 
to recognize in the process that one size doesn't fit all. We 
train mariners to work on OSVs. There are tow boat captains, 
there are supertanker captains. As we said in the testimony, 
there are different skills at work. Most captains in the U.S. 
fleet try to avoid large objects at sea. Our captains try to 
get as close to them as they possibly can without hitting them. 
We need a system that allows people to advance in all of those 
areas. We need a system that allows the hawsepiper to have as 
much chance of success as the academy grad.
    The system needs to make logical sense. We need to remove 
any of the barriers that don't allow Americans to succeed based 
on their own hard work and skill. We need a system that works 
for the mariner, not against him. We think the Coast Guard 
shares that vision, but we think the Coast Guard needs to put 
the proper resources into simplifying the entire system; 
otherwise, all of the efficiencies--to use a phrase that came 
out of the former Louisiana senator is like putting socks on a 
rooster. It is not going to solve the problem, it will just 
dress it up.
    A couple of other issues that we raised. Mr. LoBiondo has 
very accurately brought up the TWIC problem. I won't go into it 
here. Only to say that after having TSA promise so often that 
they would make this process seamless and efficient, it is 
inexcusable that we find the problems we find.
    The final thing I would raise is there have been some 
experiments in privatizing course approval. Course approval 
gets to the heart at the whole licensing process. The MTSA 
required mariners to have security training through STCW. Most 
of the vessel captains on those vessels are required to have 
vessel security officer training. A private company was brought 
in early to develop the courses, handle course approval, and 
then oversee the quality control. This was originally done 
under a grant, but the grant ran out, and then a fee was 
assessed on the training institutions. That fee was then passed 
on as a cost to mariners or their companies, who paid for the 
training.
    Without anybody really intending it, what we found was we 
have an unfunded mandate, paid for by the maritime industry, 
with not the sort of responsibility and control that we think 
it should have. So if the Coast Guard is going to continue this 
experiment, we hope that it will be vetted with the maritime 
community.
    And that concludes my testimony. Thank you very much.
    Mr. Cummings. Thank you.
    Recognize Mr. Bishop for introduction.
    Mr. Bishop. Thank you, Mr. Chairman.
    It is my honor to introduce Captain Bill Clark, President 
of the Passenger Vessel Association for 2009, and who, along 
with his brother Cliff, own and operate South Ferry, 
Incorporated, a year-round ferry service between the towns of 
Shelter Island and Southampton in my congressional district.
    Bill and Cliff are fifth generation ferry operators whose 
family business has provided ferry service to the south fork of 
Long Island since the early 1800s. Bill and Cliff are both 
merchant mariners holding captains licenses issued by the Coast 
Guard. As it relates to today's hearing, over half of Bill's 
employees are credentialed by the Coast Guard. In addition, 
Bill is a retired Coast Guard captain. His active duty spanned 
nearly 30 years. He commanded three Coast Guard cutters and 
also had several assignments in the marine safety mission, 
including marine inspector, commanding officer of a marine 
safety office, captain of the port, and officer in charge of 
marine inspection.
    South Ferry's five double-ended ferry boats vary in size 
and can carry up to 20 vehicles, and each year transports more 
than 700,000 vehicles and 1.3 million passengers over its five-
minute single route.
    Mr. Chairman, I thank you for inviting Bill to testify 
before us today, as he is an ideal witness to discuss the 
issues we are exploring. I welcome him to Washington, D.C. and 
I thank him for his participation and thank you for allowing me 
to introduce him.
    Mr. Cummings. Mr. Bishop, thank you very much.
    We welcome you, Captain Clark.
    Captain Clark. Thank you so much, Congressman Bishop, for 
that kind introduction. And thank you, Mr. Chairman, for 
inviting us to participate today.
    Mr. Cummings. Thank you.
    Captain Clark. PVA is aware of too many instances in which 
a mariner has been prevented from working because of credential 
processing delays, even when the mariner has submitted a 
complete application well in advance. We don't buy into the 
notion that a properly completed application should be held up 
in system, awaiting processing or assignment to an evaluator, 
and we object to delays when an application is stuck in the 
pile.
    The Coast Guard acknowledges that the average processing 
time for credentials is 80 days. That is far too long. We know 
of a number of PVA members who have endured much longer 
experiences getting their licenses renewed.
    What is more, the Coast Guard estimates that at least 29 
percent of the processing time is totally within their own 
control in the system.
    Here is an example from a PVA member in New York, on Long 
Island. The company owner applied to the NMC for renewal of his 
captain's license more than 90 days in advance. The medical 
application took over three months to clear the medical review 
branch. Then more delay occurred at the professional evaluation 
branch. His license expired and he was unable to captain his 
own boat for a month, until he received his renewed credential. 
His small business had to incur the unnecessary expense of 
hiring another captain.
    The NMC should set tight standards in which each step of 
the evaluation process is accomplished. There are a number of 
steps. We understand the need for such steps and such orderly 
process, but there needs to be a time frame and we need to meet 
that time frame.
    We appreciate the Coast Guard's commitment to improving the 
situation; we think it is sincere. We have seen them work 
wonders with the RECs in the past, where they brought failing 
units up to speed, and we expect that will happen this time and 
we need it to happen.
    The National Maritime Center has taken on too many changes 
in too short a time to effectively serve its customers. The 
mariners, as one customer of the NMC, are bearing the brunt of 
these changes. Neither Congress nor the Coast Guard should be 
content with the current level of service.
    Congressman Bishop covered my questions, so I am going to 
skip past that.
    The Coast Guard may be considering a medical examination--I 
think we heard it today--every two years. If the Coast Guard 
can't handle the volume of five-year medical reviews now, how 
does it expect to deal with the flood of two-year medical 
evaluations? We urge the Coast Guard to delay any move toward 
two-year evaluations or any other additions to the licensing 
requirements until such time that the current system stabilizes 
at a satisfactorily level of service.
    And, again, I will just hit on this. Congressman Bishop has 
covered this one also, and I think the Coast Guard thoroughly 
agrees on this. NMC should make expanding the trusted agent 
program a top priority. It sounds like they have, but I think 
that is going to add a lot to the equation by not having the 
Coast Guard return incomplete documents and then start the 
process all over again sometime later.
    Communication difficulties between applicants and the NMC 
continue to be of concern. Mariners must have real-time, 
accurate information about the status of their applications. 
PVA proposes that there should be a merchant mariner on staff 
at NMC who can serve as point of contact for applicants having 
difficulty with the process and who can advocate for these 
mariners within the NMC apparatus. I think this is similar to 
something you put forth as an omnibus program in the last Coast 
Guard authorization bill.
    Mr. Chairman and members of this Committee, please accept 
my sincere appreciation for inviting me to participate today 
and for your obvious keen understanding of the issues. I 
appreciate your plans for follow-up. Thank you very much.
    Mr. Cummings. Thank you very much.
    Mr. Block?
    Mr. Block. I wish to thank you, Chairman Cummings, for 
extending this kind invitation to appear before your 
Subcommittee today. I represent the National Mariners 
Association that speaks on behalf of limited tonnage 
credentialed merchant mariners, all of whom are directly 
impacted by the quality of services provided by the National 
Maritime Center.
    I have actively participated in credentialing--to use the 
new terminology--for the past 40 years. My day job is as 
publisher of Marine Education Textbooks, which is a small 
business that has been preparing instructional material to help 
mariners pass the lower level Coast Guard license exams for 
vessels up to 1600 tons.
    I am Secretary of our Association and I previously prepared 
and transmitted two reports to the Transportation and 
Infrastructure Committee dealing with today's topics, the first 
in February of 2007, two years ago, the second one in May of 
this year. I prepared both reports in collaboration with our 
Association President, Captain Joseph Dady. Your staff has 
electronic copies of these and all numbered reports referenced 
in my testimony. I don't think I have to go into any more 
detail on those reports.
    The 126,000 credentialed mariners that we speak for, the 
lower level mariners, pay user fees and expect timely service 
on obtaining, upgrading, and renewing their credentials. 
Delayed credentials cost money, job opportunities, and even 
loss of employment, all especially important in today's tough 
economic times. Delays cost the National Maritime Center as 
well by fruitlessly fielding repetitive telephone calls from 
our frustrated mariners. Our mariners frequently tell us about 
useless calls that they have made to the NMC help desk in 
painful detail.
    Under Captain Fink, the former commanding officer of the 
National Maritime Center, mariners who faced personal crises 
received prompt and personal attention when our Association 
brought these problems to his attention. He extended similar 
courtesies to our board members, who also serve on several 
advisory committees.
    Statistics don't tell the whole story; however, 
manipulating statistics and putting the best possible spin on 
them appears to be standard practice at NMC. We review NMC from 
our mariners' perspective, that of working mariners who pay 
user fees in return for services that should help them continue 
and keep on the job, and not interrupt and delay, deter, or 
discourage them, as frequently happens.
    Most credentialed mariners are independent and self-
reliant. They only seek our help after their best efforts fail. 
Each mariner presents a unique set of problems, as our two 
reports show. In most cases, they already have asked advice 
from their friends, coworkers, employers, and schools. 
Occasionally, we remain their last resort.
    We have had some problems with the present commanding 
officer of the National Maritime Center, who has totally 
sabotaged the efforts of our Association to deal with many of 
these problems. This is covered in our written testimony, and I 
don't see any reason to drag it out here.
    We appreciate the work of this Subcommittee and we support 
H.R. 2652, and especially in U.S. Code Section 7508, which 
would provide authority to extend the duration of licenses. We 
hope that you will be able to craft this legislation in a 
manner that will protect individual mariners from the type of 
losses that have been discussed today, resulting from needless 
delays and possibly end the adversarial relationship with our 
mariners that has erupted during the current administration of 
the National Maritime Center.
    I seek to extend the duration of licenses long enough so 
that somebody who has lost his or her license or stands to lose 
it may possibly be covered for a week or a month, or whatever 
time is necessary to straighten out their application and carry 
them through without loss of job, opportunity or pay.
    Thank you very much, and I apologize for over-extending my 
time.
    Mr. Cummings. Thank you very much.
    Mr. Rodriguez?
    Mr. Rodriguez. Good afternoon, Chairman Cummings, Ranking 
Member LoBiondo, and members of the Subcommittee. The American 
Maritime Officers, the International Organization of Masters, 
Mates, and Pilots, and the Marine Engineers' Beneficial 
Association are grateful for the opportunity to appear today 
before the Subcommittee.
    Accurately documenting merchant mariner qualifications is 
critical to our industry and to the individual mariners who 
make it work.
    For mariners, licensing and documentation is not about 
metrics, action plans, surging resources, or outreach to the 
industry; it is about our ability to maintain employment that 
provides for our families, maintains health care and pension 
benefits, and allows mariners to advance in the seafaring 
profession.
    In 2004, when the Coast Guard began revising its medical 
review process by proposing a new Navigation and Vessel 
Inspection Circular, or NVIC, we agreed that the system of 
medical review needed to be improved. However, we also 
expressed our concerns that the NVIC was excessive and overly 
complex, and that the Coast Guard had underestimated the number 
of mariners affected, the number of requests for medical 
waivers, and the size of staff and the level of resources 
required. We, among many others, predicted that the system 
would be prone to delays and that mariners would lose income 
and essential benefits.
    It is absolutely unacceptable that any mariner should be 
out of work due solely to the failure of the system to 
adequately anticipate problems that we have experienced, 
especially after the agency was repeatedly warned that these 
problems were coming. We have come to the conclusion that the 
present Coast Guard medical review process is a flawed system 
that seriously needs to be revisited. And I would add that on 
the Senate side there is some legislation to do just that, 
Senate Bill 685.
    Merchant mariner licensing and documentation, now called 
credentialing, is an area of great concern to us as well. 
Accurately documenting mariners is critical to our ability to 
provide qualified mariners to every sector of the industry, 
including U.S. flag and international flag sector. There is 
general concern among the licensed mariner community that the 
Coast Guard is deliberately diminishing the professional 
standing of merchant mariner officers by eliminating the word 
``license'' from their regulations in favor of the terms 
``credential'' and ``officer endorsement.'' We recall that, in 
2004, Coast Guard legal personnel issued a legislative change 
proposal to rewrite 46 U.S.C. 7101, the statute that 
establishes merchant mariner licenses. Among other things, the 
term ``license'' would have been dropped from that statute.
    In our view, by eliminating the word ``license'' from its 
regulations, the Coast Guard is doing by regulation what the 
Congress would not allow it to do in statute.
    In addition, we have other serious and specific concerns 
over the credentialing functions. Mariners are receiving their 
documents with necessary endorsement stripped away from them. 
Mariners wait for months in order to have their documents 
updated, and several of our members complained that advice from 
the NMC help desk is inconsistent or just plain wrong.
    In the past, mariners went to one of the Coast Guard's 
Regional Exam Centers, or RECs, to initiate and complete their 
licensing and documentation transactions. The benefit to the 
mariner was the availability of REC personnel to address 
problems on the spot. Centralization of licensing and 
documentation has concentrated the workload at the NMC, 
eliminated the professional discretion of the RECs to fix 
problems, and has deepened the split between the Coast Guard 
and the mariner community.
    In conclusion, we hold the view that our merchant mariners 
are a national asset. They contribute to the quality of life 
around the world by maintaining and upgrading their skills and 
professionalism, carrying our commerce, supporting our armed 
forces, and assisting during national disasters. They deserve 
no less than the best efforts of our Government to assist them 
in providing their service to our society.
    Thank you, Mr. Chairman.
    Mr. Cummings. Thank you.
    Mr. Van Loo, you are not testifying, are you?
    [No audible response.]
    Mr. Cummings. Okay.
    Mr. Laird?
    Mr. Laird. No, I am not.
    Mr. Cummings. Thank you very much.
    I am going to go to Mr. LoBiondo. I will go to you first, 
then we will go to Mr. Bishop, then I will clean up.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    Captain Clark, your testimony notes that the Coast Guard 
has implemented a consolidated merchant mariner credential and 
entered into a partnership with the TSA to coordinate certain 
aspects of TWIC and the MME processing program; implemented a 
new medical review system; implemented new endorsements for 
standards of training, certification, and watchkeeping; and, in 
addition to these changes, the Coast Guard has also established 
the National Maritime Center and consolidated many activities 
formerly conducted in the 17 Regional Exam Centers.
    I understand your argument that, in the short-term, the 
Coast Guard is having difficulty absorbing all of these 
changes; however, in the long-term, do you believe that these 
changes will result in a stronger, more effective credentialing 
program or that there will still be problems?
    Captain Clark. You are asking me that question?
    Mr. LoBiondo. Yes, Captain Clark.
    Captain Clark. I think the Coast Guard is doing their level 
best to make this new credentialing system work, and time will 
tell. When you go to a centralized system, you have a better 
opportunity for consistency than you would at 17 independent 
RECs that we had around the Country. But I think the other side 
of that argument is, if it is not a top-notch central 
organization, the mariner has no place else to turn.
    I am from a port where we had an option for two RECs in the 
day of the RECs, where you went to the REC, they had somebody 
at the REC that would look at your application, would tell you 
there are things missing here, so you get them corrected 
immediately.
    We actually had a situation where one of the RECs that was 
within our reach was doing an abysmal job and the other one was 
doing an outstanding job, so all of our mariners had an option 
and they all went to that port that was doing well, and it was 
remarkable because it wouldn't have been the first choice, but 
geographically it was similar traveling time and all those 
things.
    So I think we have an opportunity here for uniformity, if 
we can produce a central system that demonstrates excellence in 
all phases of this. But when the mariner is removed by 
geography and there is question as to the ability to 
communicate specifically about his case, we have opened the 
door to some of the concerns that we have heard expressed 
today.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    Thank you, Captain Clark.
    Captain Clark. Yes, sir.
    Mr. Cummings. Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chairman.
    Mr. Wells, you indicate in your testimony that the 
credentialing system should be simplified and that obstacles 
that, in your view, serve no purpose, should be removed. Can 
you be specific about some of the obstacles that currently 
exist that serve no purpose, that you believe should be 
removed?
    Mr. Wells. To cite specific examples, I would like to go 
back and think about it and provide it to you in writing.
    Mr. Bishop. But you will submit that for the record?
    Mr. Wells. Yes.
    Mr. Bishop. Thank you. I appreciate that.
    Captain Clark, I am going to guess that a fair number of 
the members of the Passenger Vessel Association are seasonal 
businesses and, thus, the consequence of a credential expiring 
during the height of a season can be particularly difficult for 
that business to accommodate. In our testimony, you cite one 
example of a vessel owner who had to hire someone to operate 
his own vessel. Are there other examples that you can cite and 
can you just sort of walk us through the consequences of a 
credential expiring?
    Captain Clark. Yes, sir. Thank you for that question. I 
have one of my two senior pilots, he has been working at South 
Ferry for 40 years, and I guess that means he is on his eighth 
issue of a five-year license. In the middle of June, he brought 
to my attention that he had submitted his renewal package to 
the NMC six weeks ago, and he just then, six weeks later, in 
the middle of June, when our big season is coming up and we 
need him more than ever, received a letter regarding his 
medical condition. There was an existing condition.
    I fully understand why we need to get to the bottom of any 
existing medical situation that could compromise safe 
transportation, but the delay between the time he sent this 
completed package in and he got the notification that now we 
need more information, he got that information within, I would 
say, three working days and did just what I told him, to make 
sure you get that right there, overnighted to the NMC so they 
can get right to work on it.
    But now we are getting towards the end of June and his 
license is due to expire next week, on the 14th. I think that 
exemplifies for me and others why we need to have a special 
queue for people that have submitted everything they need to 
submit and their license is going to expire, and in most cases 
it is going to get issued. But don't make it so he has to stop 
working, he can no longer do his job just because of an 
administrative situation.
    And we do have other situations like that where mariners 
have just been caught up in a system that is backlogged, quite 
frankly.
    Mr. Bishop. Okay, thank you very much.
    Mr. Chairman, I thank you.
    Mr. Cummings. Captain Clark, as you were talking, I was 
seeing that the Rear Admiral--I guess you all were talking 
about the problem that Captain Clark just stated. I hope that 
you all can talk afterwards and perhaps get the information 
about this situation.
    Captain Clark. Well, thank you so much for that comment, 
Mr. Chairman. We have talked and we will continue to talk.
    Mr. Cummings. Oh, good. Good. So your family has been in 
this business for a long time?
    Captain Clark. It goes back to--and we are trying to nail 
down the exact date, but early part of the 1800s, when our 
forebearer, Samuel G. Clark, came all the way from Connecticut, 
a small-time farmer, found that he could pick up a few extra 
bucks rowing people across the small passage.
    Mr. Cummings. Is that right?
    Captain Clark. Yes, sir.
    Mr. Cummings. So you have lived basically by the water.
    Captain Clark. We grew up right by the water and the ferry 
boats are right in front of the house when they are not in 
service on the route, which is right next door.
    Mr. Cummings. And I take it, in listening to your 
testimony, all of you, you have tried to be balanced. I mean, 
you understand the Coast Guard has a job to do, but I take it 
that you are trying to make sure that, in the process of doing 
that job--and this is to all of you--that they do their job, 
but that job does not interfere with commerce unreasonably and 
unnecessarily. Is that a pretty good----
    Captain Clark. That is an excellent way of putting it. And 
I will say this, we need to do our part as mariners. We need 
not wait until the very last moment. But that is exactly what 
we are looking for.
    Mr. Cummings. Well, if you notice in my questions to the 
members of the Coast Guard, officers from the Coast Guard, one 
of the things I said, I kept asking assuming that people submit 
their paperwork in a timely fashion, why we are having this 
problem? Because I agree with you, I think it has to be a two-
way street.
    Captain Clark. It has to be.
    Mr. Cummings. We have got to make it as easy as we possibly 
can. We have got to go by the rules, as far as mariners are 
concerned, to do the right things. But then, once we do the 
right things, do them timely, then Government has a duty not to 
stand in the way. It has a duty to do its job, but, at the same 
time, not to stand in the way because we can't get our act 
together, and that seems to be the problem.
    I just want to go to the four of you. If you had something 
that you would really want to see--I mean, you have the Coast 
Guard right here, you have the folks who are in charge of the 
program. If there is something that you really would want to 
see them do, I mean, I know you have testified, but if you 
could just give us a sentence or two that would make a big 
difference, we just want to hear that, because we want to be 
effective and efficient.
    And I have got to tell you, working with Mr. LoBiondo, our 
Ranking Member, we really work together well, and our Committee 
has worked together trying to figure out how to not get so 
caught up in politics and deal with curing people's problems, 
because we only have one life to live, and this is it.
    So we will start with you, Mr. Rodriguez. And I want it 
just to be brief; we are going to end this hearing in the next 
few minutes. But I just want you to let us know what is your 
number one thing that you want them to do? You have got them 
sitting right there. They are taking notes. It looks like they 
are running out of paper and ink, but they are taking notes. 
But they are listening.
    Mr. Rodriguez?
    Mr. Rodriguez. Thank you, Mr. Chairman. The first--may I--
--
    Mr. Cummings. Two. I will give you two. All right, two.
    Mr. Rodriguez. The first would be the trusted agent 
proposal. We would like to explore that and expand it and make 
it work. We have people in our schools around the industry who 
have the expertise to help the Coast Guard with some of these 
problems. They have the proper interest because they would be 
helping their fellow mariners through the process and----
    Mr. Cummings. And the trusted agent concept is to try to 
help make sure the application process is complete so they 
don't have to start all over again, is that pretty much----
    Mr. Rodriguez. It could be that. It could be expanded to a 
number of different areas where there is a problem with the 
volume of work that is going to the National Maritime Center.
    My second wish would be to revisit the medical review 
process. We have never been in agreement with centralizing the 
medical review process because we have a system now where 
fitness for duty is determined by somebody in West Virginia who 
has never seen a mariner, has never examined the person, and is 
making a determination based on paperwork traveling back and 
forth. That has resulted in a number of delays. We have a 
medical profession out there that is perfectly capable of 
making physical examinations and determining whether a mariner 
is fit for duty.
    Now, I think what was missing in the old system was the 
ability of the Coast Guard to communicate consistent policy to 
its RECs and also to physicians who were examining mariners. In 
our written testimony, we talk about a system that is in place 
in the United Kingdom, I believe, and that is a system where 
the maritime authority in the U.K. sends some very clear and 
very understandable guidance to physicians around the U.K. to 
do the mariner medical evaluations. So we have always advocated 
for a system like that.
    Mr. Cummings. Okay.
    Mr. Rodriguez. This medical review process is just too 
complex, it is too difficult, and results in many, many delays, 
as we have seen.
    Mr. Cummings. Mr. Block.
    Mr. Block. My wish for the day is in four words for the 
Coast Guard: respond to our letters. Thank you.
    Mr. Cummings. Captain Clark?
    Captain Clark. I would emphasize that, when we have a 
licensing situation in extremis--and by that I mean if this 
thing doesn't get renewed in a very short period of time, this 
mariner is going to be out of work--when we have that kind of 
an extremis situation, follow the rules of the road and avoid a 
collision.
    And I think the Coast Guard is working very hard to put a 
process in place that they can depend on that will kind of put 
the thing on automatic pilot, and I think, to some extent, if 
it is done right, it can do that. But they will never get past 
the point where certain situations arise and we get into that 
extremis situation, and that needs to be a priority. I can't, 
for the life of me, understand why, if the mariner is going to 
get his credential, let's get it now.
    Mr. Cummings. Well, it is interesting. Mr. LoBiondo had 
asked a question about whether, when they fall into that 
category, was there any authority to give them at least a 
temporary kind of license or something to hold them over, keep 
them working, and the answer from the Coast Guard was no. We 
might want to look into that.
    Go ahead.
    Captain Clark. If I may, I think the Coast Guard feels like 
they are bound by a Congressional mandate that says you can 
only issue a credential for five years, and one of the tides 
that is working against us here is that if mariners have a 
disincentive to send it in a year ahead of time, as was 
mentioned, or six months, because traditionally that has led to 
a loss of some percentage of your license--in other words, now 
it is a four and a half year license--I think there is a 
process in place now where they can do a delayed action and 
maybe minimize the loss of time on your license to maybe one 
month under a delayed issuance program.
    But I think all those kinds of things need to be made 
better known to the mariners. PVA needs to do its part to get 
that word out; Coast Guard needs to do their part.
    Mr. Cummings. Before we get to you, Mr. Wells, I just want 
to ask you one other thing, Captain. You indicated that many 
queries to the National Maritime Center go unanswered. Is this 
still the case, and how long do you have to wait, on the 
average, to receive a response?
    You also indicated that you support the establishment of an 
ombudsman to help. The only reason I am mentioning it now is 
Mr. Block had a similar concern when he said the four words, 
and basically he is saying just respond to us, let's keep the 
communication going. I am just trying to figure out are you 
still having problems getting your--now, the Coast Guard claims 
they are in pretty good shape as far as----
    Captain Clark. Interaction.
    Mr. Cummings.--interaction.
    Captain Clark. Yes, sir.
    Mr. Cummings. But if we have a breakdown where people are 
not at least getting some type of response, all that does is 
lead to total frustration and it puts the mariner in a position 
and the employer of the mariner in an unpredictable position. I 
try to tell people all the time, as one who ran a small 
business for several years, the most important thing you can do 
for a business person is give them a decision, be it good or 
bad. They need to know something so that they can plan.
    So I am just trying to figure when you say--and I know you 
want to be fair to the Coast Guard. Are you still having 
problems? Because I don't want that to hang out there if it has 
been resolved or whatever.
    Captain Clark. I think the problem is not so extreme that 
you just can't get an answer, because you can get somebody on 
the phone. But I think the problem that I see and that we see 
in the PVA is getting enough information about exactly where 
that document is that is in for renewal, or if it is a new 
issue, where we stand on that.
    It seems like that is the part of the puzzle that is so 
important to the mariner. If it is not specific information, if 
it is just sitting in the pile, that makes him feel worse than 
before he picked up the phone. If he can get some information--
he is wondering is there something I have done to make this 
worse? If I have, I need to fix it. And they understand that. 
Mariners know that. I think that has been, to me, at the crux 
of the problem, just getting the specific information that they 
need.
    Mr. Cummings. Mr. Wells?
    Mr. Wells. It sounds a little corny, but I think the 
message we would want to pass on is we would want the Coast 
Guard to wake up in the morning knowing that day, if this 
system doesn't work for the individual mariner, that mariner's 
ability to earn a livelihood or advance in his profession is at 
risk. To own that fact and put the resources in place to fix 
it.
    Mr. Cummings. Mr. Bishop, did you have anything?
    We are going to end the hearing, but let me just say this. 
I want to thank all of you for your testimony.
    Mr. Laird, did you have anything? Yes, please do. You sat 
here all day.
    Mr. Laird. Okay. Thank you, sir. I just want to say that we 
have a fledgling project here all three unions are involved 
with that was really initiated in 2007 by MARAD, the LNG 
international business, and everything has been said as far as 
disadvantaging the mariner and the things that we are doing. I 
agree with everything. I like the dialogue.
    The issue is here we are making our debut internationally, 
and when we go on these international contracts, they are 
evaluating whether or not we can deliver. We have a couple of 
contracts, one is with a major oil company, and they put these 
people through complex training programs, and, at the end of 
the day, at the end of the time of the four months, they are 
looking for these people to go in service. They don't want to 
hear that it is going to be another four to eight weeks, 
because there are tens of thousands of dollars at stake, not 
just the mariners' pay.
    So that is all I want to say, because there is a government 
initiative with the MARAD project that we have put a lot of 
time and effort into, and we don't want to see it vanish, 
because mostly it is for the new generation of officers coming 
up the line. We want them to have--I sailed LNG captain and I 
had a great career there, and we see, luckily this week we had 
nine new juniors from a couple of the maritime academies start 
out with this major oil company.
    We want them to have a career at sea and many more of these 
young officers out of these maritime academies. We have to 
prove ourselves to these international companies that, first of 
all, we know we can do the job and we can be competitive. The 
third thing is that we need to be able to do our job with our 
documents in a timely way, basically.
    Thank you for giving me that time.
    Mr. Cummings. Thank you, Mr. Laird.
    Mr. Van Loo?
    Mr. Van Loo. In my file, I have numerous examples of 
mariners that are experiencing difficulties in renewing their 
documents. It is our wish that the Coast Guard would expedite 
the process and get these guys back to sea.
    Mr. Cummings. Well, I would appreciate it if you would--
since you have the main people here--that you talk to them 
before you leave.
    Mr. Van Loo. I will.
    Mr. Cummings. I want to thank all of you for being here. I 
want to make sure that we are very clear. This is not a bash 
the Coast Guard hearing. This is about how do we work with the 
Coast Guard so that they can accomplish their mission and so 
that the mariners can accomplish theirs. I think sometimes we 
can make things more difficult than they have to be.
    But I think that, listening to all of you, the Coast Guard 
included, we can do this. This doesn't sound like rocket 
science stuff. I think Mr. Wells said it, and perhaps it was 
some philosopher that said it even better than I can say it, 
that if we would just take a moment to put ourselves in the 
other person's shoes sometimes, we would have a greater 
sensitivity and could probably work things out better. That is 
both ways, by the way.
    All I am saying to you is that we are going to work with 
the Coast Guard. I think we can do better. We need to get rid 
of this backlog. We just simply cannot--even if the economic 
times were not what they are today, we simply cannot afford to 
have one single person out of work because the Government 
cannot get its act together, as I said a little bit earlier. So 
we are going to work hard with the Coast Guard and we are going 
to follow up with the Coast Guard and make sure that we address 
this backlog.
    Again, going back to Mr. LoBiondo, our Ranking Member's 
question, probably one of the most crucial questions during 
this hearing is when he asked the question does the Coast Guard 
have what they need; and the Coast Guard said they have what 
they need. Once you answer that in that form, we expect 
results.
    We also expect something else. We expect the Coast Guard to 
be able to look and see certain things coming. We don't expect 
them to be the person that can see every single thing, but 
there are certain things that you just see coming, and you all 
are in the business of seeing things coming out there on the 
water.
    So all I am saying is that I think probably a little bit 
more foresight would have been helpful and then acting on that 
foresight would have been helpful, and perhaps we would not 
find ourselves in the situation that we are in today. That 
doesn't mean that we would not have had problems, but maybe not 
to the degree that we have them now.
    And I don't want us to underestimate how serious this is. I 
think we need to resolve it, because the one thing we don't 
want to do is we don't want it to get worse. So, again, I want 
to thank you all for your patience. Speaking of foreseeability, 
we could not foresee that we were going to have this problem to 
delay you all for so long, but we really do appreciate the fact 
that you stuck around and made your voices heard.
    So, with that, we will adjourn the hearing. Thank you.
    [Whereupon, at 2:27 p.m., the Subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] T0974.020
    
    [GRAPHIC] [TIFF OMITTED] T0974.021
    
    [GRAPHIC] [TIFF OMITTED] T0974.022
    
    [GRAPHIC] [TIFF OMITTED] T0974.023
    
    [GRAPHIC] [TIFF OMITTED] T0974.024
    
    [GRAPHIC] [TIFF OMITTED] T0974.025
    
    [GRAPHIC] [TIFF OMITTED] T0974.026
    
    [GRAPHIC] [TIFF OMITTED] T0974.027
    
    [GRAPHIC] [TIFF OMITTED] T0974.028
    
    [GRAPHIC] [TIFF OMITTED] T0974.029
    
    [GRAPHIC] [TIFF OMITTED] T0974.030
    
    [GRAPHIC] [TIFF OMITTED] T0974.031
    
    [GRAPHIC] [TIFF OMITTED] T0974.032
    
    [GRAPHIC] [TIFF OMITTED] T0974.033
    
    [GRAPHIC] [TIFF OMITTED] T0974.034
    
    [GRAPHIC] [TIFF OMITTED] T0974.035
    
    [GRAPHIC] [TIFF OMITTED] T0974.036
    
    [GRAPHIC] [TIFF OMITTED] T0974.037
    
    [GRAPHIC] [TIFF OMITTED] T0974.038
    
    [GRAPHIC] [TIFF OMITTED] T0974.039
    
    [GRAPHIC] [TIFF OMITTED] T0974.040
    
    [GRAPHIC] [TIFF OMITTED] T0974.041
    
    [GRAPHIC] [TIFF OMITTED] T0974.042
    
    [GRAPHIC] [TIFF OMITTED] T0974.043
    
    [GRAPHIC] [TIFF OMITTED] T0974.044
    
    [GRAPHIC] [TIFF OMITTED] T0974.045
    
    [GRAPHIC] [TIFF OMITTED] T0974.046
    
    [GRAPHIC] [TIFF OMITTED] T0974.047
    
    [GRAPHIC] [TIFF OMITTED] T0974.048
    
    [GRAPHIC] [TIFF OMITTED] T0974.049
    
    [GRAPHIC] [TIFF OMITTED] T0974.050
    
    [GRAPHIC] [TIFF OMITTED] T0974.051
    
    [GRAPHIC] [TIFF OMITTED] T0974.052
    
    [GRAPHIC] [TIFF OMITTED] T0974.053
    
    [GRAPHIC] [TIFF OMITTED] T0974.054
    
    [GRAPHIC] [TIFF OMITTED] T0974.055
    
    [GRAPHIC] [TIFF OMITTED] T0974.056
    
    [GRAPHIC] [TIFF OMITTED] T0974.057
    
    [GRAPHIC] [TIFF OMITTED] T0974.058
    
    [GRAPHIC] [TIFF OMITTED] T0974.059
    
    [GRAPHIC] [TIFF OMITTED] T0974.060
    
    [GRAPHIC] [TIFF OMITTED] T0974.061
    
    [GRAPHIC] [TIFF OMITTED] T0974.062
    
    [GRAPHIC] [TIFF OMITTED] T0974.063
    
    [GRAPHIC] [TIFF OMITTED] T0974.064
    
    [GRAPHIC] [TIFF OMITTED] T0974.065
    
    [GRAPHIC] [TIFF OMITTED] T0974.066
    
    [GRAPHIC] [TIFF OMITTED] T0974.067
    
    [GRAPHIC] [TIFF OMITTED] T0974.068
    
    [GRAPHIC] [TIFF OMITTED] T0974.069
    
    [GRAPHIC] [TIFF OMITTED] T0974.070
    
    [GRAPHIC] [TIFF OMITTED] T0974.071
    
    [GRAPHIC] [TIFF OMITTED] T0974.072
    
    [GRAPHIC] [TIFF OMITTED] T0974.073
    
    [GRAPHIC] [TIFF OMITTED] T0974.074
    
    [GRAPHIC] [TIFF OMITTED] T0974.075
    
    [GRAPHIC] [TIFF OMITTED] T0974.076
    
    [GRAPHIC] [TIFF OMITTED] T0974.077
    
    [GRAPHIC] [TIFF OMITTED] T0974.078
    
                                    

</pre></body></html>
